No. 19In the

Supreme Court of the United States
DIANE B. WEISSBURG, ESQ.,
Petitioner,
v.
LOS ANGELES UNIFIED SCHOOL DISTRICT,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Diane B. Weissburg
Counsel of Record
Weissburg Law Firm
12240 Venice Boulevard, Suite 22
Los Angeles, CA 90066
(310) 390-0807
dbw_law@msn.com
Attorney for Petitioner

288397

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
This is a matter of first impression in the Federal and
California Court systems.
1.

Are Individual Educational Placement (“IEP”)
meetings Official Proceedings?

2.

Do parents have the right to record IEP
meetings, and use the content of those recorded
IEP meetings in subsequent court actions?

3.

Is an IEP meeting an “issue of public interest.”

4.

Whether a parent, guardian, or local educational
agency has a right under federal law to audio
record IEP meetings and use the content of those
recordings, without fear of retribution?

Petitioner Diane B. Weissburg (“Petitioner”) requests
review of the decision of the United States Court of Appeal
For The Ninth Circuit, App., infra, 1a-4a, which affirmed
the trial court’s denying of their Anti-SLAPP motion
against the Counter-Claim filed by Los Angeles Unified
School District. (“LAUSD”), App., infra, 5a-16a.
In 2018, Mother Christine Truong (“Mother”
or “Truong”) and her counsel Diane B. Weissburg
(“Weissburg”) attended a series of IEP assessment and
placement meetings with Los Angeles Unified School
District (“LAUSD” or “Respondent”) regarding an IEP
program for Truong’s son D.N. Truong recorded the
meetings as allowed by California Education Code §
56341.1. Following one of the meetings, Truong was told by

ii
Counsel for LAUSD that Truong had left the tape recorder
on during lunchtime while the father was in the room.
While the 2018 IEP meetings were taking place,
Truong, as the Guardian ad Litem of DN, filed a complaint
in the District Court seeking reversal of Due Process
hearing decisions made by an Administrative Law Judge
in 2017. LAUSD’s answer to Truong’s complaint included
a counterclaim against DN, Truong, and Weissburg for
violation of California’s Invasion of Privacy Act (“CIPA”),
Penal Code § 632 alleging the recordings were privileged,
even though DN’s Father, Vincent Nguyen (“Nguyen”) was
in the room, and that the recording itself was a violation
of Penal Code § 632.
Counter-Defendants filed Anti-SLAPP Motions in the
District Court, Code of Civil Procedure §425.16, seeking to
strike LAUSD’s counterclaim, and Motion to Dismiss. The
District Court denied Counter-Defendants’ Anti-SLAPP
Motions and Motions to Dismiss. Counter-Defendants
appealed that decision to the 9th Circuit, who denied the
appeal. The 9th Circuit Court ruled the “Appellants have
failed to make a threshold showing that the recording
relates to a public issue”. App. 1a-4a at pg. 4.
This lower-court decision will chill the rights of
parents and the right to have counsel throughout the
United States.

iii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
The parties to the proceeding in the court whose
judgment is sought to be reviewed are:
1)

D.N., a minor, by and through Christine Truong,
parent; Counter-Defendant.

2)

Christine Truong, Counter-Defendant.

3)

Diane B. Weissburg, Counter-Defendant and
Petitioner.

4)

Los Angeles Unified School District, CounterClaimant and Respondent.

There are no corporations involved in this proceeding.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION OF THE SUPREME COURT . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PETITIONER’S STATEMENT OF THE CASE  . . . . 3
1.

The 2018 IEP Meetings . . . . . . . . . . . . . . . . . . . . . 3

2.

Counsel For Mother Checks The Recordings  . . 5

3.

District Court Proceedings  . . . . . . . . . . . . . . . . . 8
A. O r a l a r g u m e nt s w e r e h e ld on
June 15, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . 9

v
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . 10
1.

The Ninth Circuit Appeal Decision Violated
A Parent’s Right of Petition  . . . . . . . . . . . . . . . . 11
A. In the appeal to the Ninth Circuit, the
Ninth Circuit did not consider if IEP
meetings were Official Proceedings  . . . . . 11
B. In the appeal to the Ninth Circuit,
the Ninth Circuit stated that the
recording “did not relate to a matter of
public interest”  . . . . . . . . . . . . . . . . . . . . . . 13

2.

Right s of Pa rent(s) t o Record IEP
Proceedings Without Fear of Retaliation . . . . . 16

3.

Claims Against Counter-Defendants
Are From Activities That Are Protected
Sp e e ch Under CCP § 4 2 5 .16 , A nd
Protected By California Education Code
§ 56341.1 et seq . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

vi
TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
APRIL 23, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
FILED JUNE 26, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 5a

vii
TABLE OF CITED AUTHORITIES
Page
Cases:
Amanda J. v. Clark County School,
267 F.3d 877 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 10
Anten v. Superior Court,
233 Cal. App. 4th 1254 (2015)  . . . . . . . . . . . . . . . . . . 18
Arnett v. Dal Cielo (1996),
14 Cal. 4th 4  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Chaves v. Mendoza,
94 Cal. App. 4th 1083  . . . . . . . . . . . . . . . . . . . . . . . . . 21
Benge v. Superior Court,
131 Cal. App. 3d 336 (1982)  . . . . . . . . . . . . . . . . . . . . 18
Bleavins v. Demarest,
127 Cal. Rptr. 3d 580 (2011) . . . . . . . . . . . . . . . . . . . . 24
Braun v. Chronicle Publishing Co.,
52 Cal. App. 4th 1036 (1997) . . . . . . . . . . . . . . . . . 21, 24
Briggs v. Eden Council for Hope & Opportunity,
19 Cal. 4th 1106 (1999)  . . . . . . . . . . . . . . . . . . 13, 22, 24
Catalina Island Yacht Club v. Superior Court,
242 Cal. App. 4th 1116 (2015) . . . . . . . . . . . . . . . . . . . 18
Choate v. County of Orange,
86 Cal. App. 4th 312 (2000) . . . . . . . . . . . . . . . . . . . . .19

viii
Cited Authorities
Page
City of Cotati v. Cashman,
29 Cal. 4th 69 (2002) . . . . . . . . . . . . . . . . . . . . . . . 21, 23
County of Riverside v.
Public Employment Relations Bd.,
200 Cal. Rptr. 3d 573 (2016) . . . . . . . . . . . . . . . . . . . . 24
Dible v. Haight Ashbury Free Clinics, Inc.,
88 Cal. Rptr. 3d 464 (2009) . . . . . . . . . . . . . . . . . . . . . 24
Equilon Enterprises, LLC v.
Consumer Cause, Inc.,
29 Cal. 4th 53 (2002) . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Flores v. Emerich & Fike,
416 F. Supp. 2d 885 (E.D. Cal. 2006) . . . . . . . . . .  22-23
Fontani v. Wells Fargo Investments, LLC,
129 Cal. App. 4th 719 (2005)  . . . . . . . . . . . . . . . . 24, 25
Hylton v. Frank E. Rogozienski, Inc.,
177 Cal. App. 4th 1264 (2009) . . . . . . . . . . . . . . . . . . . 23
Kearney v. Salomon Smith Barney, Inc.,
39 Cal. 4th 95 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Kibler v.
Northern Inyo County Local Hospital Dist.,
39 Cal. 4th 192 (2006) . . . . . . . . . . . . . . . . . . . . . . 11, 12

ix
Cited Authorities
Page
Metabolife Intern. Inc. v. Wornick,
264 F.3d 832 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 21
Ms. S. ex rel. G. v. Vashon Island School Dist.,
337 F.3d 1115 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . 14
Navellier v. Sletten,
29 Cal. 4th 82 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Olaes v. Nationwide Mutual Ins. Co.,
135 Cal. App. 4th 1501 (2006) . . . . . . . . . . . . . . . . . . . 24
Porter v. Board of Tr.,
307 F.3d 1064 (9th Cir. 2002) . . . . . . . . . . . . . . . . . . . 24
Rand Res., LLC v. City of Carson,
433 P.3d 899 (Cal. 2019)  . . . . . . . . . . . . . . . . . . . . . . . 15
Rivero v. Am. Fed’n of State, Cty.,
& Mun. Emps.,
130 Cal. Rptr. 2d 81 (Cal. Ct. App. 2003) . . . . . . . . . 15
Scott v. Metabolife Intern., Inc.,
115 Cal. App. 4th 404 (2004) . . . . . . . . . . . . . . . . . . . . 23
Weissburg v. Lancaster School District,
591 F.3d 1255 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 6
W.G. v. Board of Trustees of Target Range School
District,
960 F.2d 1479 (9th Cir. 1992) . . . . . . . . . . . . . . . . . . . 14

x
Cited Authorities
Page
Winkleman v. Parma City School Dist.,
550 U.S. 516 (2007) . . . . . . . . . . . . . . . . . . . . . . . . 10, 12
Constitutional Provisions:
U.S. Constitution, Amendment 1 . . . . . . . . . . . . . . . . . . . 1
Statutes:
20 U.S.C. § 1232g . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
20 U.S.C. § 1415  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
California Business and Professions Code
Business and Professions Code § 805(a)(1)(A)(i)-(ii)  . . 12
Business and Professions Code § 809 et seq. . . . . . . 11, 12
Business and Professions Code § 809(a)(3) & (5) . . . . . 12
Business and Professions Code § 809(a)(6) & (7) . . . . . 12
California Code of Civil Procedure
Code of Civil Procedure § 425.16 . . . . . . . . . . . . . 9, 21, 23

xi
Cited Authorities
Page
Code of Civil Procedure § 425.16(a) . . . . . . . . . . . . . 21, 23
Code of Civil Procedure § 425.16(b) . . . . . . . . . . . . . . . . 25
Code of Civil Procedure § 425.16(b)(1) . . . . . . . . . . . 21, 23
Code of Civil Procedure § 425.16(e) . . . . . . . . . . . . . . . . 22
Code of Civil Procedure § 425.16(e)(1) . . . . . . . . . . . . . . 25
Code of Civil Procedure § 425.16(e)(2) . . . . . . . . 12, 24, 25
Code of Civil Procedure § 425.16(e)(3) . . . . . . . . . . . . . . 22
Code of Civil Procedure § 425.16(e)(4) . . . . . . . . . . . 22, 25
California Education Code
Education Code § 56341.1 . . . . . . . . . . . . . . . . . . . . . . . . 25
Education Code § 56341.1 et seq.  . . . . . . . . . . . . . . . . . . 21
Education Code § 56341.1(g) . . . . . . . . . . . . . . . . . . . .  1, 10
Education Code § 56341.1(g)(1) . . . . . . . . . . . . . . . . . . . . 16
Education Code § 56341.1(g)(2) . . . . . . . . . . . . . . . . . . . . 20
Education Code § 56500-56507 . . . . . . . . . . . . . . . . . . . . 24
Education Code § 56505(f)(2)  . . . . . . . . . . . . . . . . . . . . . 14

xii
Cited Authorities
Page
California Penal Code
Penal Code § 630 et seq. . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Penal Code § 632 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Penal Code § 632(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Penal Code § 632(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Diane B. Weissburg respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit in
this matter.
OPINIONS BELOW
The decision of the court of appeals was not published,
and is reprinted in the Appendix (App.) at 1a-4a. The
district court’s opinion was not published, and is reprinted
at App. 5a-16a.
JURISDICTION OF THE SUPREME COURT
The jurisdiction of this Court to review the Judgment
of the United States Court of Appeals For the Ninth
Circuit decision on April 23, 2019, is invoked under 28
U.S.C. § 1254(1), and has been timely filed.
CONSTITUTIONAL AND
STATUTORY PROVISIONS
The First Amendment to the United States Constitution
states: “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and
to petition the government for a redress of grievances.”
California Education Code § 56341.1(g) states in part,

2
(1) “Notw ithstanding Section 632 of the
Penal Code, the parent or guardian or local
educational agency shall have the right to
audio record the proceedings of individualized
education program (“IEP”) team meetings……
(2) The Legislature hereby finds as follows:
(A) Under federal law, audio recordings made
by a local educational agency are subject to
the federal Family Educational Rights and
Privacy Act of 1974 (20 U.S.C. Sec. 1232g), and
are subject to the confidentiality requirements
of the regulations under Sections 300.610 to
300.626, inclusive, of Title 34 of the Code of
Federal Regulations.
(B) Parents or guardians have the right,
pursuant to Sections 99.10 to 99.22, inclusive,
of Title 34 of the Code of Federal Regulations,
to do all of the following:
(i) Inspect and review the audio recordings.
(ii) Request that the audio recordings be
amended if the parent or guardian believes
that they contain information that is inaccurate,
misleading, or in violation of the rights of
privacy or other rights of the individual with
exceptional needs.
(iii) Challenge, in a hearing, information that
the parent or guardian believes is inaccurate,
misleading, or in violation of the individual’s
rights of privacy or other rights.”

3
Parents are not specifically authorized by Federal Law
to record IEP meetings, or use those recordings for any
purpose. This has to change to allow parents to advocate
for their children.
PETITIONER’S STATEMENT OF THE CASE
1. The 2018 IEP Meetings
A series of IEP meetings were scheduled between
LAUSD and Truong to develop an IEP for D.N. Truong
was represented by counsel, Diane B. Weissburg.
On all IEP notices, Truong advised in writing that
she would be recording all IEP meetings as allowed by
California Education Code 56341.1, and that she was
represented by Counsel. Further, DN’s Father, Nguyen,
has joint physical and legal custody of DN, but does
not have educational rights (pursuant to a family law
order). Nguyen did attend all IEP meetings. LAUSD
was represented by Mary Kellogg, Esq (“Kellogg”) at
all meetings, and D.N. and Truong were represented by
Diane B. Weissburg. DN was attending Westmark due to
a diagnosis of Auditory Processing Disorder (with parent
placement) at Rosemead School district expense, pending
full reassessments for transfer to high school.
Ms. Shapiro and Mr. Pitt, LAUSD employees, were
responsible for LAUSD’s recorder; Mother was solely
responsible for her recorder and taping of the IEP
meetings. No rules regarding the use of a recorder either
orally or in writing were ever provided to the participants.
At no time did LAUSD personnel ever tell mother when to
turn her recorder on or off, including breaks and lunches.

4
People came and went during the meeting, including
those not included in the meetings, like the Information
Technology, and maintenance employees.
The first IEP meeting was held January 30, 2018.
Although all assessments were not complete, and all goals,
placements, and services had not been developed, Counsel
for LAUSD, Ms. Kellogg, got the team to agree that D.N.
remained eligible for Special Education and Services, and
that his primary disability category was SLD due to his
Auditory Processing Disorder. Goals, types of placements,
and services continued to be discussed.
The second day of the IEP meeting was February 5,
2018. Suddenly, Counsel for District claimed that D.N.
might have Autism or that he suffers from Autistic-like
behaviors or characteristics, and that D.N.’s primary
eligibility category should change to Autism.
None of the evaluators, including Dr. Shelly Berger,
the school psychologist, ever asserted that D.N. had
autism or suffered from any autistic like behaviors or
characteristics. In fact Dr. Berger’s report, and Dr.
Berger’s Gilliam Autism Rating Scale (GARS-3), clearly
indicated that autism criteria was not met for D.N. Both
Truong and Nguyen disagreed with the sudden change of
disability and the primary label to autism or autistic like
behaviors or characteristics, and the issue was tabled.
Goals, placement, and services continued to be discussed.
The third IEP meeting was held February 8, 2018.
Once again, Kellogg raised the issue that D.N. had autism
or suffers from autistic like behaviors or characteristics.
Dr. Berger clearly stated during that meeting that D.N.

5
never exhibited any stereotypical behaviors of autism
when she assessed him at his school. Further, most of the
other assessors agreed they never saw any stereotypical
behaviors of autism or autistic-like behaviors during their
assessments of D.N. Goals, types of placements, and
services continued to be discussed.
The fourth IEP meeting was held February 28, 2018.
Goals, types of placements, and services continued to be
discussed. No possible school placements and/or teacher
credentials were offered by LAUSD for Truong to assess,
although previously requested by her.
Suddenly, after lunch at the fourth IEP meeting on
February 28, 2018, Kellogg asserted orally to Weissburg
that Truong may have left her tape recorder on during the
February 8, 2018 lunch with her clients, and/or the lunch
break, and to turn off recording devices during the lunch
break. Further, Kellogg requested that the recordings be
checked for privileged content. The IEP meeting resumed,
and Goals, types of placements, and services continued
to be discussed. No possible school placements and/or
teacher credentials were offered by LAUSD, for Truong
to assess, although previously requested by her.
The fifth IEP meeting was to be held March 8, 2018.
That meeting was cancelled due to pre-determination of
Autism by the District.
2. Counsel For Mother Checks The Recordings
As a result of Kellogg’s request, Weissburg requested
a copy of the February 8, 2018 recording from Truong;
Truong provided that copy on March 7, 2018.

6
It was discovered that the entire IEP meeting
including the lunch and break periods had been recorded
by Truong. Truong had intended to take the recorder to
listen to the proceedings during lunch; but was rushed
out by Kellogg and Truong left the recorder on the table.
Lunch was from 12:05 to 12:50 p.m. Truong and her
Counsel left at approximately 12:05 p.m. and returned
at approximately 12:50. Due to being rushed out of the
meeting by Kellogg, Truong forgot the recorder. District
employees knew Nguyen stayed in the room during that
lunch meeting, and that he spoke during the meeting.
That lunch break recording of February 8, 2018, which
lasted approximately 50 minutes, showed a clear case
of pre-determination that DN had Autism by LAUSD
employees and LAUSD counsel against D.N., even though
there was no evidence that D.N. ever had autism, (“we are
tasked by the district and our partners to want the autism
as the primary one”). The lunch meeting took place with
Nguyen, Kellogg, and LAUSD employees, and included
all participants except Truong and her Counsel. People
came and left the room during that 50 minute period. Since
Nguyen remained at the lunch meeting, no attorney/client
privilege can be invoked of this meeting.
The participants continued talking about (among
other issues not addressed here) D.N.’s needs, goals, and
services; the reasons why the team had to give D.N. a
primary disability label of autism or suffers from any
autistic-like behaviors or characteristics (their superiors
wanted him labeled that way); statements about Truong
and Weissburg; and detailed reference to the case of
Weissburg v. Lancaster School District, 591 F.3d 1255
(9th Cir. 2010), in relation to D.N.’s case, in violation of
procedural safeguards and FAPE.

7
Statements made on the February 8, 2018 recording
included but are not limited to:
A. Kellogg: “Autism is first category, it’s hard to get
into Westmark. If they do not agree with it, we no longer
care”; “She does not want D.N. labeled Autistic, because
Westmark is not an Autistic school”; “we made our peace,
if she does not like it, she can file; I need to prep you
guys”. (D.N. was attending Westmark at Rosemead School
District expense, as parentally placed.)
B. Berger: “The reason he is going to Westmark is
because they can give him services.” Kellogg: “oh please
never say that, let’s move on.”
C. Berger: ….”the autistic-like characteristic is not
identified anywhere in his educational history.” Kellogg:
“Please don’t revisit it.”
D. Diaz-Rempel: “Don’t you have to at the end to say
what his eligibility is? Kellogg: “And we are tasked by
the district and our partners to want the autism as the
primary one….”
F. Berger: “He is not identified anywhere in other
school districts.” Kellogg: “Don’t revisit it.” “We are
tasked by school district to identify him as autistic like
behavior.” Excerpt of Records (“ER”)1
On March 8, 2018, the fifth IEP meeting was scheduled.
Counsels for Mother and District had a meet and confer
1. Excerpt of Records will be provided with the Brief after
the Court grants review.

8
about Kellogg’s request to check the recordings, and the
above information, prior to the meeting starting. Weissburg
told Kellogg that the conversation was recorded; that there
was no intent to record any privileged communication, as
Truong always left the recorder on; that Nguyen was in
the room, and no attorney/client privilege attached; that
Truong would not go forward with the IEP meeting as
it was pre-determined and a useless exercise; and that
Truong would file for a due process hearing.
3. District Court Proceedings
On February 27, 2018, Truong, as the Guardian ad
Litem of DN, filed a complaint in the district court against
LAUSD, as well as El Monte Union High School District,
and Birmingham Community Charter High School
involving other issues. That complaint sought reversal of
decisions made by an Administrative Law Judge having
to do with parents’ right to select the school the minor is
attending, and the Autism label, in a series of Due Process
Hearings. That matter is now pending in the district court,
Case No. 2:18-cv-01582-AB-AFM.
When LAUSD filed their Corrected Answer to
Plaintiff’s Complaint on March 28, 2018, they included
a Counterclaim against Appellants and Weissburg for
violation of California’s Invasion of Privacy Act (“CIPA”),
Penal Code § 632, asserting that Appellants engaged in
unlawful invasion of privacy when they “intentionally
and without consent of all parties to a confidential
communication, used a recording device to record the
confidential communication and thereafter retained,
transcribed, disclosed, and used such confidential
communications.”

9
On April 16, 2018, Counsel for Weissburg filed an
Anti-SLAPP Motion in the District Court, Code of
Civil Procedure §425.16, seeking to strike LAUSD’s
counterclaim against Weissburg, and a Motion to Dismiss.
On May 8, 2018, Weissburg filed an Anti-SLAPP Motion
in the District Court, Code of Civil Procedure §425.16,
seeking to strike LAUSD’s counterclaim against D.N.
and Truong, and a Motion to Dismiss. It was argued in
these motions to strike and Motions to Dismiss that the
counterclaim arose from protected activity during an
official proceeding; and there can be no intent to record
privileged lunch meeting proceedings as father was in the
room during the entire lunch.
In opposition LAUSD argued that the counterclaim
did not arise from protected activity, as the conduct
underlying the counterclaim is the act of recording itself,
and that the conduct underlying the counterclaim did
not further the exercise of free speech; and that LAUSD
would prevail on the counterclaim.
A.

Oral arguments were held on June 15, 2018.

On June 26, 2018, the Court denied CounterDefendants’ Motions to Strike (Anti-SLAPP) CounterClaimant’s Counterclaim, and Motion to Dismiss. App.,
infra, pgs. 5a-16a. The Court concluded that CounterDefendants had not shown that the challenged cause
of action arose from activity taken in furtherance of
their right to petition or free speech. App., pgs. 5a-16a.
In its written decision, the court stated that CounterDefendants failed to establish the recording of LAUSD
conversations during a lunch break was in furtherance of
their right to petition or free speech.

10
On July 9, 2018, Counter-Defendants timely filed a
Notice of Appeal to the Ninth Circuit with regard to the
Anti-SLAPP Order, based on the Court’s jurisdiction
pursuant to the collateral order doctrine and pursuant to
28 USC § 1291. The Ninth Circuit ruled the recording did
not relate to a matter of public interest, and affirmed the
district court’s holding. (D.N. et al. v. LAUSD v. Diane
B. Weissburg et al, April 23, 2019 decision, 18-55913,
unpublished, App. infra, 1a-4a.)
REASONS FOR GRANTING THE PETITION
Pursuant to the United States Constitution, and the
1st amendment, Petitioner respectfully submits review
should be granted, for the reasons set forth below.
The United States Supreme Court has recognized
that parental participation in the development of an IEP is
the cornerstone of the IDEA. (Winkleman v. Parma City
School Dist. (2007) 550 U.S. 516, 524 [127 S.Ct. 1994, 167
L.Ed.2d 904]. Parental participation in the IEP process is
also considered “(A)mong the most important procedural
safeguards.” (Amanda J. v. Clark County School (9th
Cir. 2001) 267 F.3d 877, 882.) To that end, California law
allows the recording of IEP meetings, and the use of
those recordings in subsequent court actions. California
Education Code § 56341.1(g) states in part,
(1) “Notwithstanding Section 632 of the Penal Code, the
parent or guardian or local educational agency shall have
the right to audio record the proceedings of individualized
education program (“IEP”) team meetings……

11
In this matter, review is necessary to resolve conflicts
for whether a IEP meeting is an Official Proceeding
thereby making it subject to California’s anti-SLAPP
statute; that IEP meetings and that recordings relate
to a matter of public interest; review is necessary to
establish a parent has a right to record an IEP meeting,
and use that recording without fear of reprisal; and to
settle important questions of law for the application of the
rights to protected activity in furtherance of the right of
petition or free speech of the individuals who are pursuing
their rights through IEP’s and Due Process Hearings;
and the right of an attorney to represent parents and
children in these proceedings, also without fear of reprisal
for bringing those actions. These are important questions
of federal law that has not been, but should be, settled by
this Court.
1. The Ninth Circuit Appeal Decision Violated A
Parent’s Right of Petition
A.

In the appeal to the Ninth Circuit, the Ninth
Circuit did not consider if IEP meetings were
Official Proceedings.

Petitioner contends the procedures detailed in IEP
meetings are an official proceeding authorized by law,
comparing it to the hospital peer review proceedings
detailed in the Business Professions Code (Bus. & Prof.
Code, § 809 et seq.) and discussed in Kibler v. Northern
Inyo County Local Hospital Dist. (2006) 39 Cal.4th 192
(Kibler).
“Peer review is the process by which a committee
comprised of licensed medical personnel at a hospital

12
‘evaluate[s] physicians applying for staff privileges,
establish[es] standards and procedures for patient care,
assess[es] the performance of physicians currently on
staff,’ and reviews other matters critical to the hospital’s
functioning.” (Kibler, supra, 39 Cal.4th at p. 199, quoting
Arnett v. Dal Cielo (1996) 14 Cal.4th 4, 10; Bus. & Prof.
Code, § 805, subd. (a)(1)(A)(i)-(ii).) IEP meetings for a
special needs child review a child’s performance and
needs, and create a plan for the child. This Court has
recognized that parental participation in the development
of an IEP is the cornerstone of the IDEA. Winkleman,
supra, 550 U.S. at 524, making the parents’ role in those
proceedings crucial. The need to record those proceedings
is the only way for a parent to prove that the District failed
to comply with FAPE.
Business and Professions Code section 809 explains
that the peer review process is “essential to preserving
the highest standards of medical practice,” and “fairly
conducted,” it “aid[s] the appropriate state licensing
boards in their responsibility to regulate and discipline
errant healing arts practitioners.” (Bus. & Prof. Code,
§ 809, subds. (a)(3) & (5).) The purpose of the peer review
process is “[t]o protect the health and welfare of the
people of California” by excluding practitioners who
“provide substandard care or who engage in professional
misconduct,” and the Legislature expects peer review to
“be done efficiently, on an ongoing basis.” (Bus. & Prof.
Code, § 809, subds. (a)(6) & (7).)
In Kibler, the Supreme Court concluded a hospital’s
peer review proceeding qualifies as an “‘official proceeding
authorized by law” under Code of Civil Procedure section
425.16, subdivision (e)(2). (Kibler, supra, 39 Cal.4th at

13
p. 198.) The court reasoned that the proceedings were
statutorily mandated and heavily regulated, and that
hospitals were required to report the results of the
proceedings to state licensing boards, showing their
proceedings play a “significant role” in regulation and
discipline of practitioners. (Id. at pp. 199-200.) The
court also commented that the decisions resulting
from the proceedings are subject to judicial review by
administrative mandate, making the proceedings quasijudicial. (Id. at p. 200.) Federal law requires the IEP
process is also statutorily mandated, heavily regulated,
and the IEP proceedings are required to be reported to the
State Department of Education, showing the proceedings
play a “significant role” in regulation, services for children,
and discipline of practitioners. The IEP process also plays
a significant role in services to children in the education
arena, and in California, parents have the right to have
an attorney present.
B. In the appeal to the Ninth Circuit, the Ninth
Circuit stated that the recording “did not relate
to a matter of public interest.”
Briggs v. Eden Council for Hope & Opportunity,
969 P.2d 564, 571 (Cal. 1999). This Court only has to look
at the high volume of due process hearing requests for
Districts’ failure to comply with FAPE that are filed by
parents in California every year, and subsequent actions
in the Federal Courts, to determine that this is a huge
matter of public interest.
Further, LAUSD’s position that all children in their
school district should be labeled Autistic, Kellogg: “And
we are tasked by the district and our partners to want

14
the autism as the primary one….” violates every child’s
rights in the district to a FAPE. Predetermination in the
development of an IEP occurs when “(A) school district
. . . independently develops an IEP, without meaningful
parental participation, and then simply presents the
IEP to the parent for ratification.” Ms. S. ex rel. G. v.
Vashon Island School Dist. (9th Cir. 2003) 337 F.3d 1115,
1131 (Vashon Island). As what happened in D.N.’s case,
predetermination also occurs when an educational agency
enters an IEP meeting with a “take it or leave it” position.
W.G. v. Board of Trustees of Target Range School District
(9th Cir. 1992) 960 F.2d 1479, 1484 (Target Range).)
According to California Education Code section 56505,
subdivision (f)(2), a procedural violation may result in a
substantive denial of FAPE only if it:
1.

Impeded the child’s right to a free appropriate
public education;

2.

Significantly impeded the parents’ opportunity
to participate in the decision making process
regarding the provision of a free appropriate
public education to the parents’ child; or

3.

Caused a deprivation of educational benefits.
(Target Range, supra, 960 F.2d at p. 1084.)

Having LAUSD pre-determine a child’s classification
as Autistic, and services to a child as Autistic who does
not have Autism, but has Auditory Processing disorder,
due to funding issues, placement, or services issues as in
this case, is a great matter of public concern.

15
The California Supreme Court has identified three
nonexclusive categories of conduct that satisfy the
requirement of matters of public interest: 1) conduct
concerning “a person or entity in the public eye”; 2)
“conduct that could directly affect a large number of
people beyond the direct participants”; and 3) conduct
involving “a topic of widespread, public interest.” Rand
Res., LLC v. City of Carson, 433 P.3d 899, 907 (Cal. 2019)
(quoting Rivero v. Am. Fed’n of State, Cty., & Mun. Emps.,
130 Cal. Rptr. 2d 81, 89 (Cal. Ct. App. 2003)). App., infra,
pgs. 3a-4a.
The Ninth Circuit Court’s ruling did not consider that
when a school district files a lawsuit accusing a parent of
violation of privacy because they exercised their right to
record IEP and use those recordings in a subsequent court
action, and that right to record can be extinguished by
such actions. Although parents have the right to record
IEP meetings in California, parents will be very fearful
and hesitant to exercise that right if they fear being sued
by the school district in retribution for their recordings
and use of those recordings. This right could especially
have a deleterious effect on parents who do not have
the money or education to defend themselves against a
retaliatory lawsuit by a school district. Allowing school
districts to be able to retaliate against parents through
lawsuits has the potential to unlawfully deter parents
from advocating with the district on behalf of their child’s
rights under federal law.
The lower court opinion’s far-reaching consequences,
and the plainly important nature of the issues it raises
make this case a compelling vehicle by which to provide
the lower courts needed guidance.

16
2. Rights of Parent(s) to Record IEP Proceedings
Without Fear of Retaliation
Pursuant to California Education Code § 56341.1(g)
(1), parents are entitled to record IEP team meetings, as
long as the parent provides 24-hour written notice.
Even though the recorder was on the table in front of
LAUSD personnel, LAUSD sued Counter-Defendants for
violation of CIPA, Penal Code § 632, in an effort to chill
protected speech. LAUSD asserts Counter-Defendants
“engaged in unlawful invasion of privacy within the
meaning of the California’s Invasion of Privacy Act,
Penal Code §§ 630 et seq., including, but not limited to,
Penal Code § 632, subdivision (a), when they intentionally
and without consent of all parties to a confidential
communication, used a recording device to record the
confidential communication and thereafter retained,
transcribed, disclosed, and used such confidential
communications.”
California Penal Code 632(a) states that “Every
person who, intentionally and without the consent of all
parties to a confidential communication, by means of any
electronic amplifying or recording device, eavesdrops
upon or records the confidential communication, shall
be punished by a fine not exceeding two thousand five
hundred dollars ($2,500), or imprisonment in the county
jail not exceeding one year, or in the state prison, or by
both that fine and imprisonment.”
The term “confidential communication” is defined
by California Penal Code 632(c) as including “any
communication carried on in circumstances as may

17
reasonably indicate that any party to the communication
desires it to be confined to the parties thereto, but excludes
a communication made in a public gathering or in any
legislative, judicial, executive or administrative proceeding
open to the public, or in any other circumstance in which
the parties to the communication may reasonably expect
that the communication may be overheard or recorded.”
CIPA protects only confidential communications.
Kearney v. Salomon Smith Barney, Inc. (2006) 39 Cal.4th
95, 117 (interpreting § 632). Communication during an
IEP meeting is not reasonably considered a “confidential
communication” (among its participants and as defined in
the Penal Code), and important federal anti-discrimination
laws are in place to protect the interests of special needs
students so that they are not retaliated against by those
public officials who would, without proper justification, try
to wield the state criminal laws against them.
In applying state law, the key element is whether the
communication is of the type that is reasonably expected
to be private and not recorded, and thus “confidential.”
The IEP is not such a meeting.
Under California state law the school officials can
hardly expect their communications during an IEP
meeting to be private and unrecorded, especially if they
are informed that the parent will be recording. Here,
Truong notified LAUSD of her intent to record all IEP
meetings in writing, which LAUSD does not dispute.
No one revoked that consent either orally or in writing.
LAUSD had recorders going as well.

18
Nguyen who is the father, was in the room during
the entire IEP meeting, including during the lunch and
breaks. LAUSD counsel and LAUSD employees knew
Nguyen was sitting in the room, that he overheard the
entire conversation, and that he participated in some of the
conversations with Counsel for LAUSD. The IEP Team
and counsel could not have had an objectively reasonable
expectation that their conversations were private.
“[T]he attorney-client privilege applies only to
confidential communications.” Anten v. Superior Court
(2015) 233 Cal.App.4th 1254, 1260, fn. 6, see Catalina
Island Yacht Club v. Superior Court (2015) 242 Cal.
App.4th 1116, 1129, fn. 5, [“the attorney-client privilege
attaches only to confidential communication made in the
course of or for the purposes of facilitating the attorneyclient relationship”]; Benge v. Superior Court (1982)
131 Cal. App.3d 336, 346[“[t]he privilege includes only
confidential communications”].)
LAUSD staff and their Counsel were free to get up, as
many did, and leave the room and go to another room to
have a “confidential meeting” if one was desired. LAUSD
is very embarrassed by the fact that they showed their
true colors (to label all children autistic), and do not want
the information public; LAUSD and their staff believe
have told their staff that every special education child is
to be labeled Autistic.
Weissburg had no control of the recording devise,
and there is no evidence that she ever touched the devise,
or instructed anyone about using any recording devise.
Truong, who is Vietnamese and has limited English, had
no intent to record a confidential communication during

19
the lunch or break on February 8, 2018. Truong set the
recorder on the conference table, and let it run all day,
as was her habit. On some days, Truong would take her
recorder with her during lunch, or short breaks during the
day, to review the prior statements made at the meeting,
and return the recorder to the table when she returned.
Truong had no way to even know that a confidential
communication was going to occur on that date, or
during the lunch or break. Weissburg never recorded
a confidential meeting, and never instructed Truong or
anyone else to record any meeting. Weissburg never had
or controlled any recording device.
Had Weissburg not learned of the recording through
Kellogg’s late inquiry, she would not have even known
about the recording. It is not enough that the conspiring
individual knew of an intended wrongful act, the individual
must agree to achieve it. Choate v. County of Orange, 86
Cal.App.4th 312, 333 (2000). LAUSD provided no rules to
mother, counsel and/or the participants by LAUSD staff
or Counsel at any time, either oral or written, to ensure
confidentiality of communications. Further, LAUSD
did nothing to check the recorders, either their own or
Truong’s on any day, including February 8, 2018, to know
when recorders were on or off. LAUSD has not provided
their own recording to validate that they did not record
Nguyen all of the time he was in the room during lunch
and breaks as well.
The parent has a right to record the IEP meeting
under California law. And there are good reasons for this
parental prerogative. Having a recording of a meeting
can be very helpful to a parent in understanding the
complex issues involving their child, as IEP meetings

20
often involve multiple professional opinions and reports.
It can be an important aid to a parent’s decision-making
and in formulating effective advocacy for the health
and education of their child. California Education Code
§ 56341.1(g)(2) states that a parent has the right to inspect
and review audio recordings; and challenge information
perceived to be inaccurate, misleading, or violating the
individual›s rights. No such federal law exists that allows
parents to record IEP meetings.
For a school official to deny this right to a parent by
filing a lawsuit against them is not consistent with the
parent serving the best interests of their child. No school
district should seek to use an IEP meeting recording
against the parents to prevent the recording to be used
in a subsequent court action. State law doesn’t prohibit
this type of recording under the Penal Code, and to claim
that it does constitutes unlawful retaliation against the
parent, chilling the parents’ right to participate.
LAUSD’s counter-claim was filed to intimidate
Truong. It is inherently wrong to deny a parent their
statutorily protected right to record administrative
proceedings and use that recording on behalf of their child.
The statutes are designed to protect parents and parents
should not have to defend themselves against a frivolous
lawsuit due to their recording. Otherwise, parents would
fear using the recordings that they are entitled to take,
due to fear of a lawsuit. It is a matter of right to be able
to file an appeal of an administrative decision in a district
court; if a parent is met with a cross-complaint when they
do so, then Parents will be intimidated into sitting on their
rights and fail to proceed.

21
3. Claims Against Counter-Defendants Are From
Activities That Are Protected Speech Under CCP
§ 425.16, And Protected By California Education
Code § 56341.1 et seq.
California Code of Civil Procedure § 425.16 protects
against meritless suits known as “Strategic Lawsuits
Against Public Participation” or “SLAPP” suits, which
aim at chilling the valid exercise of the constitutional
rights of freedom of speech and petition for the redress
of grievances. See C.C.P. § 425.16(a); Braun v. Chronicle
Publishing Co., 52 Cal. App. 4th 1036, 1042 (1997). A
plaintiff’s claim which arises from an act, by a defendant,
made in furtherance of that defendant’s “right of petition
or free speech under the United States Constitution or
the California Constitution in connection with a public
issue,” has no merit and will not stand under California’s
anti-SLAPP statute. Cal. Civ. Code § 425.16(b)(1). AntiSLAPP safeguards are designed to “protect individuals
from meritless, harassing lawsuits whose purpose is to
chill protected expression.” Metabolife Intern. Inc. v.
Wornick, 264 F.3d 832, 837, n. 7 (9th Cir. 2001).
“[S]ection 425.16 expressly ‘defines the kinds of claims
that are subject to the anti-SLAPP procedures.’” City
of Cotati v. Cashman, 29 Cal. 4th 69, 75 (2002), citing
Chaves v. Mendoza, 94 Cal. App. 4th 1083, 1087. Under
that statute, protected activities include:
(1) any written or oral statement or writing made
before a legislative, executive, or judicial proceeding, or
any other official proceeding authorized by law; (2) any
written or oral statement or writing made in connection
with an issue under consideration or review by a legislative,
executive, or judicial body, or any other official proceeding

22
authorized by law; (3) any written or oral statement or
writing made in a place open to the public or a public
forum in connection with an issue of public interest; or
(4) any other conduct in furtherance of the exercise of the
constitutional right of petition or the constitutional right
of free speech in connection with a public issue or an issue
of public interest. Cal. Code Civ. Proc. § 425.16(e).
Activities within subsection (3) and (4) require a
specific showing that the action concerns a matter of
public interest; the first two categories of activities do
not. Briggs v. Eden Council for Hope & Opportunity, 19
Cal. 4th 1106, 1117-18 (1999). Any speech by a public or
private party falling within these categories is protected
under the statute, and a lawsuit arising out of that speech
is subject to a special motion to strike.
Ruling upon an anti-SLAPP motion requires a
two-step process. “First, the court decides whether
the defendant has made a threshold showing that the
challenged cause of action is one arising from protected
activity . . . . If the court finds such a showing has been
made, it then determines whether the plaintiff has
demonstrated a probability of prevailing on the claim.”
Equilon Enterprises, LLC v. Consumer Cause, Inc.,
29 Cal. 4th 53, 67 (2002). “The anti-SLAPP statute’s
definitional focus is not the form of the plaintiff’s cause of
action, but rather, the defendant’s activity that gives rise
to his or her asserted liability - - and whether that activity
constitutes protected speech or petitioning.” Navellier v.
Sletten, 29 Cal. 4th 82, 92 (2002) (emphasis in original).
Consequently, a trial court must initially “focus on the
substance of the plaintiff’s lawsuit in analyzing the first
prong of a special motion to strike.” Flores v. Emerich &

23
Fike, 416 F. Supp. 2d 885, 897 (E.D. Cal. 2006), citing Scott
v. Metabolife Intern., Inc., 115 Cal. App. 4th 404, 413-14
(2004). As the California Supreme Court has noted, the
critical point in that regard “is whether the plaintiff’s
cause of action itself was based on an act in furtherance
of the defendant’s right of petition or free speech.” City
of Cotati, 29 Cal. 4th at 78 (emphasis in original). To that
end, “[a] defendant meets it burden by demonstrating that
the act underlying the plaintiff’s cause [of action] fits one
of the categories spelled out in section 425.16, subdivision
(e).” Id.
If the court finds that the first step for adjudicating
an anti-SLAPP motion is satisfied, it must then determine
whether the plaintiff has demonstrated a probability of
prevailing on the claim. Cal. Code Civ. P. 425.16(b)(1).
Equilon Enterprises, 29 Cal. 4th at 67. The anti-SLAPP
statute must be construed broadly in order to both
encourage continued participation in matters of public
significance and to restrict the chilling of such protected
activity through abuse of the judicial process. Code of
Civil Procedure § 425.16(a).
In determining the propriety of a special motion to
strike under the statute a court must look to whether the
challenged claims are indeed premised on those activities
and must “examine the principal thrust or gravamen of
a plaintiff’s cause of action” by “identifying the allegedly
wrongful and injury-producing conduct . . . that provides
the foundation for the claim” to determine whether section
425.16 applies. Hylton v. Frank E. Rogozienski, Inc., 177
Cal. App. 4th 1264, 1272 (2009) (emphasis in original).

24
Statutory hearing procedures qualify as “official
proceedings authorized by law” for purposes of protection
under the anti-SLAPP statute. California enacted §§
56500-56507 of the Education Code to comply with the
exhaustion requirement of IDEA. 20 U.S.C. § 1415;
Porter v. Board of Tr., 307 F.3d 1064, 1068 (9th Cir.
2002). Investigations by public employers, including
administrative trial-type hearings, qualify as “official
proceedings authorized by law.” Olaes v. Nationwide
Mutual Ins. Co., 135 Cal.App.4th, 1501, 1507 (2006);
see Fontani v. Wells Fargo Investments, LLC, 129 Cal.
App.4th 719, 839 (2005).
Courts have found that actions taken in anticipation of
further legal proceedings are also entitled to the benefits
of § 425.16(e)(2) and do not require that the topic be of
public interest. Dible v. Haight Ashbury Free Clinics,
Inc. (App. 1 Dist. 2009) 88 Cal.Rptr.3d 464; Bleavins
v. Demarest (App. 2 Dist. 2011) 127 Cal.Rptr.3d 580;
County of Riverside v. Public Employment Relations
Bd. (App. 4 Dist. 2016) 200 Cal.Rptr.3d 573, review filed,
review denied. See also Briggs v. Eden Council for Hope
and Opportunity, 19 Cal. 4th 1106, 1115 (1999) (“Just
as communications preparatory to or in anticipation of
the bringing of an action or other official proceeding
are within the protection of the litigation privilege of
Civil Code section 47, subdivision (b) [citation], . . . such
statements are equally entitled to the benefits of section
425.16.”).
Here, the complained of conduct which forms the
basis for LAUSD’s claim against Counter-Defendants
was taken in furtherance of the right of petition or free
speech. Braun, supra, 52 Cal.App.4th 1036, 1043 (1997).

25
As analyzed below, Counter-Defendants’ conduct falls
within Cal. Code. Civ. Proc. §426.16(e), subds. (1),(2) and (4)
as the allegations against Counter-Defendants are based
solely on their participation in an official proceedings.
See Fontani v. Wells Fargo Investments, LLC, 129 Cal.
App.4th 719, 839 (2005). Once a defendant makes the
threshold showing that a plaintiff’s action is one arising
from statutorily protected activity, the burden then shifts
to the plaintiff to establish the probability that he will
prevail on the merits of each of its causes of action. Cal.
Code. Civ. Proc. § 425.16(b).
Here, LAUSD’s claim against Counter-Defendants is
based upon the activities at the IEP meeting, and Request
for Due Process hearing, both of which constitute official
proceedings authorized by law. See Fontani v. Wells Fargo
Investments, LLC, at 839. The IEP is an administrative
hearing, and a due process hearing is a judicial proceeding
as it is established by Federal and State law, to allow an
individual to bring an action to challenge the District,
and is protected under Cal. Code. Civ. Proc. §425.16(e)
(1). Further, the protection also extends to statements
made outside of court, which were made in connection
with a judicial or official proceeding or in furtherance
of the exercise of the right of petition. Code of Civ. Proc.
§ 425.16(e)(2), (4).
LAUSD’s counterclaim seeks to penalize, restrain
and otherwise unlawfully restrict and chill rights of
Counter-Defendants. Specific statutory law, Ed. Code
56341.1, et seq. authorizes the recording of IEP meetings,
notwithstanding Penal Code § 632. LAUSD now wants
to pick and choose who can record, and when. If a parent
files a due process complaint LAUSD as in this case will

26
move to exclude the content of the recording; and then if
the parent appeals to the district court, LAUSD has to
only file a counterclaim alleging violation of Penal Code
§ 632 to chill parent’s rights to the courts. The weight of
the suspected illegal behavior must be balanced against
the chilling effect of the retaliation. This Court cannot
let that happen.
CONCLUSION
It is respectfully requested that this Court resolve the
issue about the rights of parents to record administrative
proceedings without fear of reprisal. For the foregoing
reasons, the petition for a writ of certiorari should be
granted.
Dated: July 8, 2019
Respectfully submitted,
Diane B. Weissburg
Counsel of Record
Weissburg Law Firm
12240 Venice Boulevard, Suite 22
Los Angeles, CA 90066
(310) 390-0807
dbw_law@msn.com
Attorney for Petitioner

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED APRIL 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55913
No. 2:18-cv-01582-AB-AFM.
D. N., BY AND THROUGH CHRISTINE TRUONG,
PARENT; CHRISTINE TRUONG,
Plaintiffs-Appellants,
v.
LOS ANGELES UNIFIED SCHOOL DISTRICT;
et al.,
Defendants-Appellees,
v.
DIANE B. WEISSBURG,
Counter-Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California.
Andre Birotte, Jr., District Judge, Presiding.
April 8, 2019, Argued and Submitted,
Pasadena, California
April 23, 2019, Filed

2a
Appendix A
MEMORANDUM*
Before: PAEZ and CLIFTON, Circuit Judges, and
KATZMANN, Judge.**
Christine Truong and her counsel Diane Weissburg
(collectively, “Appellants”) appeal the district court’s
denial of their motion to strike Appellee Los Angeles
Unified School District (“LAUSD”)’s counterclaim alleging
Appellants recorded its confidential communications in
violation of California law. See Cal. Penal Code § 632. We
affirm.
Appellants moved to strike under California’s antiSLAPP statute, which permits a court to strike claims
arising out of activity in furtherance of a defendant’s
right of petition or free speech. See Cal. Civ. Proc. Code
§ 425.16. To succeed, Appellants must show the activity
underlying LAUSD’s cause of action fell within one of the
four categories of activity protected under the statute.
See id. § 425.16(e); Equilon Enters. v. Consumer Cause,
Inc., 29 Cal. 4th 53, 124 Cal. Rptr. 2d 507, 52 P.3d 685, 693
(Cal. 2002). The first three categories protect “written or
oral statement[s].” Civ. Proc. § 425.16(e)(1)-(3). The fourth
category covers “other conduct” in furtherance of the right
of petition or free speech but contains a “limitation” that
the conduct be “in connection with a public issue” or an
“issue of public interest.” Briggs v. Eden Council for Hope
& Opportunity, 19 Cal. 4th 1106, 81 Cal. Rptr. 2d 471, 969
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Gary S. Katzmann, Judge for the United
States Court of International Trade, sitting by designation.

3a
Appendix A
P.2d 564, 571 (Cal. 1999); see also Old Republic Constr.
Program Grp. v. Boccardo Law Firm, Inc., 230 Cal. App.
4th 859, 179 Cal. Rptr. 3d 129, 140 (Cal. Ct. App. 2014)
(“[O]nly one of the four categories of protected activity
covers [noncommunicative] conduct . . . .” (alteration
original) (citation omitted)).
Here, the act underlying LAUSD’s counterclaim was
the noncommunicative act of recording, not any subsequent
publication or use of that recording. See Lieberman v.
KCOP Television, Inc., 110 Cal. App. 4th 156, 1 Cal. Rptr.
3d 536, 541 (Cal. Ct. App. 2003) (“A section 632 violation
is committed the moment a confidential communication is
secretly recorded regardless of whether it is subsequently
disclosed.”). As recording a conversation does not involve
making an oral or written statement, Appellants must
therefore show their recording fell within this fourth
category of conduct in connection with a public issue.
Assuming the recording furthered Truong’s right of
petition, it did not relate to a matter of public interest.
The California Supreme Court has identified three
nonexclusive categories of conduct that satisfy this
requirement: 1) conduct concerning “a person or entity
in the public eye”; 2) “conduct that could directly affect a
large number of people beyond the direct participants”;
and 3) conduct involving “a topic of widespread, public
interest.” Rand Res., LLC v. City of Carson, 6 Cal. 5th
610, 243 Cal. Rptr. 3d 1, 433 P.3d 899, 907 (Cal. 2019)
(quoting Rivero v. Am. Fed’n of State, Cty., & Mun. Emps.,
105 Cal. App. 4th 913, 130 Cal. Rptr. 2d 81, 89 (Cal. Ct.
App. 2003)). The recording did not fit within any of these
three categories as it contained typical lunch talk among
coworkers with scattered statements that Appellants

4a
Appendix A
contend are relevant to establishing LAUSD employees
inappropriately predetermined Truong’s son (D.N.) had
autism. The recorded individuals are not in the public
eye, nor does the fact that these individuals worked for
a publicly funded institution transform the recorded
conversation into a matter of public interest. See Rivero,
130 Cal. Rptr. 2d at 90. Nothing said in the recording
affects a large number of people. D.N.’s educational
plan is not the subject of widespread, public interest.
Unlike other cases involving surreptitious recordings
intended to gather news or expose wrongdoing to the
public, Appellants have not provided any evidence that
the recording would affect, or be of interest to, anyone
outside of the current litigation. See, e.g., Safari Club Int’l
v. Rudolph, 862 F.3d 1113, 1122 (9th Cir. 2017); Lieberman,
1 Cal. Rptr. 3d at 541. Because Appellants have failed
to make a threshold showing that the recording relates
to a public issue, we need not decide whether LAUSD
demonstrated a reasonable probability of prevailing on
its counterclaim. See Santa Monica Rent Control Bd. v.
Pearl St., LLC, 109 Cal. App. 4th 1308, 135 Cal. Rptr. 2d
903, 910 (Cal. Ct. App. 2003).
AFFIRMED.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, FILED JUNE 26, 2018
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV 18-01582 AB (AFMx)
D.N., A MINOR, BY AND THROUGH HIS
GUARDIAN AD LITEM, CHRISTINE
TRUONG, PLAINTIFF,
Plaintiff,
v.
LOS ANGELES UNIFIED SCHOOL DISTRICT, EL
MONTE UNION HIGH SCHOOL DISTRICT, AND
BIRMINGHAM COMMUNITY CHARTER
HIGH SCHOOL,
Defendants.
ORDER DENYING (1) DEFENDANT
BIRMINGHAM’S AND DEFENDANT EL
MONTE’S MOTIONS TO DISMISS PLAINTIFF’S
COMPLAINT (DKT. NOS. 20, 29); (2) COUNTERDEFENDANT WEISSBURG’S, AND COUNTERDEFENDANTS D.N. AND TRUONG’S MOTIONS
TO DISMISS LAUSD’S COUNTERCLAIM (DKT.
NOS. 33, 40); AND (3) COUNTER-DEFENDANT
WEISSBURG’S, AND COUNTER-DEFENDANTS

6a
Appendix B
D.N. AND TRUONG’S MOTIONS TO STRIKE
(ANTI-SLAPP) LAUSD’S COUNTERCLAIM (DKT.
NOS. 34, 41)
I.

INTRODUCTION

Pending before the Court are the following six motions:
(1) Birmingham Community Charter High School’s
Motion to Dismiss Plaintiff’s Complaint for Failure to
State a Claim Pursuant to FRCP 12(b)(6) (Dkt. No. 20);
(2) Defendant El Monte Union High School District’s
Motion to Dismiss Pursuant to Federal Rule of Civil
Procedure 12(b)(6) (Dkt. No. 29); (3) Counter[-]Defendant
Diane Weissburg’s Motion to Dismiss Counter[c]laimant’s
Complaint for Failure to State a Claim Pursuant to FRCP
12(b)(6) (Dkt. No. 33); (4) Counter[-]Defendants D.N. and
Christine Truong’s Motion to Dismiss Counter[c]laimant’s
Complaint for Failure to State a Claim Pursuant to FRCP
12(b)(6) (Dkt. No. 40); (5) Special Motion to Strike (AntiSLAPP) Counterclaims against Diane B. Weissburg
(Dkt. No. 34); (6) Special Motion to Strike (Anti-SLAPP)
Counterclaims against D.N. and Christine Truong
Pursuant to Code of Civil Procedure § 425.16 (Dkt. No. 41).
II. BACKGROUND
Plaintiff D.N. (“D.N. or “Plaintiff”), a minor, by and
through Christine Truong (“Truong”), filed a Complaint
against El Monte Union High School District (“El Monte”),
Los Angeles Unified School District (“LAUSD”), and
Birmingham Community Charter School (“Birmingham”)
in this Court on February 27, 2018. (Dkt. No. 1 (“Compl.”).)

7a
Appendix B
The factual background of this case concerns D.N., a
fourteen year-old male in the ninth grade (at the time of
the filing of the Complaint in this Court), who has been
diagnosed with (1) central auditory processing disorder;
(2) mixed receptive-expressive language disorder; (3)
other specified cognitive deficits (verbal memory and
executive function deficit); (4) specific learning disorder;
and (5) speech/language disorder. (Compl. ¶¶ 1, 12.)
D.N.’s underlying claims stem from Truong’s requests
to various school districts/school entities to evaluate D.N.
for certain disabilities and establish an individualized
education program (“IEP”) to ensure that D.N. was
receiving the appropriate educational instruction and
assistance in school. (See Compl. ¶ 39.) According to
Plaintiff, the various school districts did not conduct all of
the necessary evaluations, and delayed the IEP process.
(See Compl. ¶ 28.) Additionally, D.N. alleges that because
of the failure of various school districts to conduct the
necessary evaluations, D.N. did not receive the instruction
he needed, and Truong ultimately had to pay for schooling
that should have been covered by the state. (See Compl.
¶ 14.) Thus, according to Plaintiff, his right to free and
public education (“FAPE”) was denied. (See Compl. ¶¶ 5, 8,
60.) Ultimately, these issues resulted in D.N. filing a Due
Process Hearing Request against LAUSD, El Monte, and
Birmingham with the Office of Administrative Hearings
(“OAH”). (See Compl. ¶¶ 37, 55.)
According to D.N., the OAH issued four interim written
decisions and one final hearing decision. (See, e.g., Dkt. No.
35 at 2–3.) D.N. appeals four of those decisions through the
instant Complaint filed with this Court. (Compl. ¶¶ 56–60.)

8a
Appendix B
Relevant to the Motions to Dismiss Plaintiff ’s
Complaint, one of the decisions that D.N. characterizes
as an “interim written decision” concerns the dismissal
of El Monte and Birmingham from the administrative
hearing process. (Compl. ¶¶ 3, 58; Dkt. No. 1-3, Ex. 11.)
The Administrative Law Judge (“ALJ”) determined that
D.N.’s residence fell within LAUSD’s boundaries, and not
Birmingham’s or El Monte’s boundaries. (Dkt. No. 1-3, Ex.
11 at 12.) Thus, the ALJ determined that only LAUSD
should remain a party to the subsequent proceedings, and
Birmingham and El Monte should be dismissed. (Dkt. No.
1-3, Ex. 11 at 12.)
In response to Plaintiff’s Complaint, Birmingham and
El Monte filed Motions to Dismiss Plaintiff’s Complaint
on the basis that Plaintiff’s appeal of the ALJ’s decision
to dismiss Birmingham and El Monte is untimely. (Dkt.
Nos. 20, 29.)
LAUSD answered Plaintiff’s Complaint, and filed a
Counterclaim against D.N., Truong, and Diane Weissburg
(“Weissburg”) (D.N. and Truong’s attorney in this action).
(Dkt. No. 22.) The Counterclaim asserts one cause of
action for violation of California Invasion of Privacy Act,
Penal Code § 632, against D.N., a minor, by and through
Truong, Truong, and Weissburg, for Truong’s intentional
recording, at Weissburg’s direction, of confidential and
attorney-client privileged communications between
LAUSD representatives and LAUSD’s counsel, Mary
Kellogg (“Kellogg”), without their knowledge or consent.
(Dkt. No. 22.)

9a
Appendix B
Weissburg, and D.N. and Truong filed Motions to
Dismiss and Motions to Strike (Anti-SLAPP) LAUSD’s
Counterclaim against them. (Dkt. Nos. 33–34, 40–41.)
The Court held a hearing on the pending Motions on
June 15, 2018, and took the Motions under submission.
(Dkt. No. 57.)
III. LEGAL STANDARD
A.

MOTION TO DIMSISS

“Federal Rule of Civil Procedure 8(a)(2) requires
only a short and plain statement of the claim showing
that the pleader is entitled to relief. Specific facts are not
necessary; the statement need only give the defendant
fair notice of what the . . . claim is and the grounds upon
which it rests.” Erickson v. Pardus, 551 U.S. 89, 93 (2007)
(ellipsis in original; internal quotation marks omitted).
But Rule 8 “requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of
action will not do.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007).
Rule 12(b)(6) allows an attack on the pleadings for
failure to state a claim upon which relief can be granted.
“[W]hen ruling on a defendant’s motion to dismiss, a judge
must accept as true all of the factual allegations contained
in the complaint.” Erickson, 551 U.S. at 94. However, a
court is “not bound to accept as true a legal conclusion
couched as a factual allegation.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (internal quotation marks omitted). “Nor

10a
Appendix B
does a complaint suffice if it tenders naked assertion[s]
devoid of further factual enhancement.” Id. (alteration in
original; citation and internal quotation marks omitted).
A complaint must “state a claim to relief that is plausible
on its face.” Twombly, 550 U.S. at 570. This means that
the complaint must plead “factual content that allows the
court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678.
“The plausibility standard is not akin to a ‘probability
requirement,’ but it asks for more than a sheer possibility
that a defendant has acted unlawfully.” Id.
Ruling on a motion to dismiss will be “a contextspecific task that requires the reviewing court to draw on
its judicial experience and common sense. But where the
well-pleaded facts do not permit the court to infer more
than the mere possibility of misconduct, the complaint
has alleged—but it has not show[n]—that the pleader is
entitled to relief.” Id. at 679 (alteration in original; internal
quotation marks and citation omitted). The court must
discount conclusory statements, which are not presumed
to be true; and then, assuming any factual allegations are
true, the court must determine “whether they plausibly
give rise to entitlement to relief.” See id.; accord Chavez
v. United States, 683 F.3d 1102, 1108 (9th Cir. 2012).
B. MOTION TO STRIKE (ANTI-SLAPP)
California’s anti-SLAPP statute allows defendants
(or, in this case, counter-defendants) in courts applying
California substantive law to bring a special motion to
strike a claim if that claim arises from an act by the

11a
Appendix B
defendants to further their right of petition or free speech
in connection with a public issue. Cal. Civ. Proc. Code
§ 425.16(b)(1); Newsham v. Lockheed Missiles & Space
Co., 190 F.3d 963, 973 (9th Cir. 1999) (concluding that
the twin aims of the Erie doctrine “favor application of
California’s anti-SLAPP statute in federal cases”). An act
qualifies for protection under this statute if it falls within
one of four categories:
(1) any written or oral statement or writing
made before a legislative, executive, or judicial
proceeding, or any other official proceeding
authorized by law, (2) any written or oral
statement or writing made in connection with
an issue under consideration or review by a
legislative, executive, or judicial body, or any
other official proceeding authorized by law, (3)
any written or oral statement or writing made
in a place open to the public or a public forum
in connection with an issue of public interest,
or (4) any other conduct in furtherance of the
exercise of the constitutional right of petition
or the constitutional right of free speech in
connection with a public issue or an issue of
public interest.
Cal. Civ. Proc. Code § 425.16(e).
In considering an anti-SLAPP motion, the court must
engage in a two-step process. First, the court “ask[s] if
the defendant [(or in this case, the counter-defendant)]
has shown the challenged cause of action ‘aris[es] from’

12a
Appendix B
activity taken ‘in furtherance’ of the defendant’s right to
petition or free speech.” Safari Club Intern’l v. Rudolph,
862 F.3d 1113, 1119 (9th Cir. 2017). “If so, the burden shifts
to the plaintiff [(or in this case, the counterclaimant)]
to show ‘a [reasonable] probability of prevailing on
the challenged claims.’” Id. The plaintiff must provide
admissible evidence to establish that “the complaint is
legally sufficient and supported by a prima facie showing
of facts to sustain a favorable judgment.” Metabolife Int’l,
Inc. v. Wornick, 264 F.3d 832, 840 (9th Cir. 2001). “If the
plaintiff fails to make this showing by a preponderance
of the evidence, the court must grant the motion to strike
and award the prevailing defendant his or her attorney’s
fees and costs.” See Forever 21, Inc. v. Nat’l Stores Inc.,
2:12-CV-10807-ODW, 2014 WL 722030, at *3–4 (C.D. Cal.
Feb. 24, 2014); Cal. Civ. Proc. Code § 425.16(c)(1).
IV. DISCUSSION
There are three categories of Motions pending before
the Court: (1) Defendant Birmingham’s and Defendant
El Monte’s Motions to Dismiss Plaintiff’s Complaint
(Dkt. Nos. 20, 29); (2) Counter-Defendant Weissburg’s,
and Counter-Defendants D.N. and Truong’s Motions to
Dismiss LAUSD’s Counterclaim (Dkt. Nos. 33, 40); and (3)
Counter-Defendant Weissburg’s, and Counter-Defendants
D.N. and Truong’s Motions to Strike (Anti-SLAPP)
LAUSD’s Counterclaim (Dkt. Nos. 34, 41). Because the
two motions within each category are largely similar, the
Court addresses both motions in each category together.

13a
Appendix B
A.

BI R M I NGH A M ’ S A N D EL MON T E’ S
MOTIONS TO DISMISS PLAINTIFF’S
COMPLAINT1

Birmingham and El Monte each filed a Motion to
Dismiss Plaintiff’s Complaint on the basis that Plaintiff’s
appeal was untimely. (Dkt. Nos. 20, 29.)
Plaintiff filed his Due Process Hearing Request with
the OAH on July 14, 2017, against Birmingham, El Monte,
and LAUSD. (Compl. ¶ 55; Dkt. No. 1-1 at 9.) On August
31, 2017, the OAH bifurcated the determination of D.N.’s
residency from the issue regarding whether D.N.’s right
to a FAPE was violated. (Dkt. No. 1-1 at 9; Dkt. No. 20-3,
Ex. A at 3.) The purpose of bifurcating the proceedings
was to first determine which of the three respondents
(Birmingham, El Monte, and LAUSD) in the OAH
1. Along with their Motion to Dismiss, Defendant Birmingham
and Defendant El Monte each filed a Request for Judicial Notice,
requesting that the Court take judicial notice of the ALJ’s Order
Denying Motion to Dismiss and Granting Motion to Bifurcate. (Dkt.
No. 20-3, Ex. A; Dkt. No. 29-3, Ex. A.) Because “[a] court may take
judicial notice of records and reports of administrative bodies,” the
Court grants Birmingham’s and El Monte’s Requests for Judicial
Notice. See Lindquist v. Cont’l Cas. Co., 394 F. Supp. 2d 1230, 1243
(C.D. Cal. 2005) (internal quotation marks omitted). Further, because
district courts may consider “documents attached to the complaint,
documents incorporated by reference in the complaint,” and matters
of public record of which the court may take judicial notice under
Federal Rule of Civil Procedure 201, the Court considers this ALJ
Order in connection with Birmingham’s and El Monte’s Motions to
Dismiss. United States v. Ritchie, 342 F.3d 903, 908–09 (9th Cir.
2003).

14a
Appendix B
proceedings was responsible for providing D.N. with a
FAPE for the 2017–2018 school year. (Dkt. No. 20-3, Ex.
A at 3.)
Ultimately, on October 31, 2017, the ALJ determined
that D.N. was a resident of the LAUSD, and dismissed
Birmingham and El Monte from the due process hearing.
(Dkt. No. 1-3 at 30.) The ALJ ultimately issued its final
decision in the due process hearing on January 24, 2018,
about three months after the ALJ dismissed Birmingham
and El Monte. (Dkt. No. 1-1 at 29.)
The statute of limitations to appeal the ALJ’s hearing
decision is 90 days after receipt of the hearing decision.
See Cal. Educ. Code § 56505(k) (“An aggrieved party also
may exercise the right to bring a civil action in a district
court of the United States without regard to the amount
in controversy, pursuant to Section 300.516 of Title 34
of the Code of Federal Regulations. An appeal shall be
made within 90 days of receipt of the hearing decision.”
(emphasis added)).
The key issue here is whether the clock started
running on October 31, 2017 when the ALJ dismissed
Birmingham and El Monte, or whether it started running
on January 24, 2018, when the ALJ completed the due
process hearing.
The Court finds that the clock did not start running
until the entire due process hearing proceedings were
complete on January 24, 2018. (See Dkt. No. 1-1 at 29.)
After review of the relevant code section, California
Education Code § 56505, the statute refers to “the hearing

15a
Appendix B
proceedings;” it does not appear to make a distinction
between the hearing proceedings at large and individual
orders or decisions that the ALJ might issue during
the process. Thus, the 90 days did not start running
until January 24, 2018, when the “hearing decision” was
complete. See Cal. Educ. Code § 56505(k) (“An appeal
shall be made within 90 days of receipt of the hearing
decision.”).
Further, it does not appear that it was the ALJ’s
intention to start the appeal process clock after the ALJ
issued the October 31, 2017 decision because it is only the
hearing decision on January 24, 2018 that contains the
following language from the 2018 OAH Special Education
Handbook: “RIGHT TO APPEAL[,] This Decision is the
final administrative determination and is binding on all
parties. (Ed. Code, § 56505, subd. (h).) Any party has
the right to appeal this Decision to a court of competent
jurisdiction within 90 days of receiving it. (Ed. Code
§ 56505, subd. (k).)” (Dkt. No. 1-1 at 29.)
Because the clock started running on January 24,
2018, and Plaintiff’s Complaint was filed on February 27,
2018 (Dkt. No. 1), this appeal is timely. Thus, Birmingham’s
and El Monte’s Motions to Dismiss are DENIED.
B. WEISSBURG’S, AND D.N. AND TRUONG’S
MO T ION S T O DI SM I S S L AU S D ’ S
COUNTERCLAIM
Weissburg filed a Motion to Dismiss LAUSD’s
Counterclaim on the basis that it failed to state a claim

16a
Appendix B
under Rule 12(b)(6). (Dkt. No. 33.) D.N. and Truong also
filed a separate Motion to Dismiss LAUSD’s Counterclaim
on the same basis. (Dkt. No. 40.)
The Court denies these Motions to Dismiss because
LAUSD’s Counterclaim alleges sufficient facts to state
a claim. The Counterclaim alleges one cause of action
for violation of California Invasion of Privacy Act, Penal
Code § 632. (Dkt. No. 22.) “California Penal Code § 637.2
provides for a civil action when a person has been injured
because of a violation of § 632.” Vera v. O’Keefe, 791 F.
Supp. 2d 959, 962 (S.D. Cal. 2011). California Penal Code
§ 632 states, in relevant part:
(a) A person who, intentionally and without
the consent of all parties to a confidential
communication, uses an electronic amplifying
or recording device to eavesdrop upon or record
the confidential communication, whether the
communication is carried on among the parties
in the presence of one another or by means of a
telegraph, telephone, or other device, except a
radio, shall be punished by a fine not exceeding
two thousand five hundred dollars ($2,500) per
violation, or imprisonment in a county jail not
exceeding one year, or in the state prison, or by
both that fine and imprisonment. If the person
has previously been convicted of a violation of
this section or Section 631, 632.5, 632.6, 632.7,
or 636, the person shall be punished by a fine
not exceeding ten thousand dollars ($10,000)
per violation, by imprisonment in a county jail

17a
Appendix B
not exceeding one year, or in the state prison,
or by both that fine and imprisonment.
...
(c) For the purposes of this section, “confidential
communication” means any communication
carried on in circumstances as may reasonably
indicate that any party to the communication
desires it to be confined to the parties thereto,
but excludes a communication made in a
public gathering or in any legislative, judicial,
executive, or administrative proceeding open
to the public, or in any other circumstance in
which the parties to the communication may
reasonably expect that the communication may
be overheard or recorded.
See Cal. Penal Code § 632 (emphasis added).
Here, LAUSD has pleaded facts that, when taken
as true, state a claim for relief: “On February 8, 2018,
. . . Counterclaim[-]Defendants Truong and Weissburg,
on their own behalf and on behalf of Counterclaim
Defendant D.N., intentionally and surreptitiously recorded
confidential attorney-client communications between the
District and its legal counsel, Mary Kellogg, without
their knowledge or consent. Counterclaimant is informed
and believes and thereon alleges that Truong recorded
the confidential communications at the direction of
Weissburg.” (Dkt. No. 22 ¶ 8.)

18a
Appendix B
Counterclaim-Defendants D.N. and Truong, and
Weissburg make a myriad of arguments in their Motions
to Dismiss that are centered upon facts outside the four
corners of the Counterclaim that they attempt to use to
discount the allegations in the Counterclaim. But because
“a judge must accept as true all of the factual allegations
contained in the complaint” “when ruling on a . . . motion to
dismiss,” the Court ignores the Counterclaim-Defendants’
attempts to discount the facts in the Counterclaim by
bringing in outside facts at the motion to dismiss stage.
See Erickson v. Pardus, 551 U.S. 89, 94 (2007).
Thus, the Court DENIES Weissburg’s, and D.N. and
Truong’s Motions to Dismiss LAUSD’s Counterclaim.
C.

WEISSBURG’S, AND D.N. AND TRUONG’S
MOTIONS TO STRIK E (A NTI- SLA PP)
LAUSD’S COUNTERCLAIM

Weissburg filed a Motion to Strike (Anti-SLAPP)
LAUSD’s Counterclaim. (Dkt. No. 34.) D.N. and Truong
also filed a largely similar Motion. (Dkt. No. 41.)
“California’s anti-SLAPP statute authorizes a ‘special
motion to strike’ any ‘cause of action against a person
arising from any act of that person in furtherance of the
person’s right of petition or free speech . . . in connection
with a public issue.’” Safari Club Intern’l, 862 F.3d at 1119.
“Courts evaluating anti-SLAPP motions first ask if the
[counter-]defendant has shown the challenged cause of
action ‘aris[es] from’ activity taken ‘in furtherance’ of the
[counter-]defendant’s right to petition or free speech.” Id.

19a
Appendix B
“If so, the burden shifts to the [counterclaimant] to show
‘a [reasonable] probability of prevailing on the challenged
claims.’” Id.
Counter-Defendants, Weissburg, D.N., and Truong,
have not shown that the challenged cause of action—the
purportedly accidental recording of conversations between
LAUSD’s representatives and LAUSD’s counsel during
a lunch break—arises from activity taken in furtherance
of their right to petition or free speech.
This case is different from Safari Club International,
where the Ninth Circuit concluded that the defendant’s
conduct in the creation of the recording was “akin to
. . . ‘newsgathering[,]’” and thus “constitute[d] conduct
undertaken in furtherance of [the defendant’s] subsequent
exercise of free speech.” 862 F.3d at 1121. Here, according
to the Counter-Defendants’ story advanced in their
Motions, Truong did not intend to record during the lunch
break, and only accidentally recorded the conversations
between LAUSD’s counsel and her client that occurred
during a lunch break of an IEP meeting. (Dkt. No. 34 at
17; Dkt. No. 41 at 17.) Thus, Truong’s act of accidentally
recording LAUSD’s counsel’s communications with
LAUSD during this lunch break could not have been in
furtherance of the Counter-Defendants’ right to petition
or free speech. See Safari Club Intern’l, 862 F.3d at 1119.
Because the Counter-Defendants have failed to
establish that the conduct was in furtherance of their
right to petition or free speech, the Court DENIES the
Motions to Strike.

20a
Appendix B
V. CONCLUSION
For the foregoing reasons, (1) Birmingham’s and
El Monte’s Motions to Dismiss (Dkt. Nos. 20, 29); (2)
Weissburg’s, and D.N. and Truong’s Motions to Dismiss
LAUSD’s Counterclaim (Dkt. Nos. 33, 40); and (3)
Weissburg’s, and D.N. and Truong’s Motions to Strike
(Anti-SLAPP) LAUSD’s Counterlcaim are all DENIED
(Dkt. Nos. 34, 41).
IT IS SO ORDERED.
Dated: June 26, 2018
/s/				
HONORABLE ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT COURT
JUDGE

